<html>
<title> - HEARING ON MILITARY AND OVERSEAS VOTING: PROBLEMS AND PROGRESS IN ENSURING THE VOTE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
   HEARING ON MILITARY AND OVERSEAS VOTING: PROBLEMS AND PROGRESS IN 
                           ENSURING THE VOTE

=======================================================================

                                HEARING

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                 HELD IN WASHINGTON, DC, APRIL 15, 2008

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gob/congress/house/administration/index.html


                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
43-118 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                   COMMITTEE ON HOUSE ADMINISTRATION

                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California              VERNON J. EHLERS, Michigan
  Vice-Chairwoman                      Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    DANIEL E. LUNGREN, California
CHARLES A. GONZALEZ, Texas           KEVIN McCARTHY, California
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama
                 S. Elizabeth Birnbaum, Staff Director
                 Will Plaster, Minority Staff Director


  MILITARY AND OVERSEAS VOTING: PROBLEMS AND PROGRESS IN ENSURING THE 
                                  VOTE

                              ----------                              


                        TUESDAY, APRIL 15, 2008

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 11:08 a.m., in Room 
1310, Longworth House Office Building, Hon. Robert A. Brady 
[chairman of the committee] Presiding.
    Present: Representatives Brady, Lofgren, Gonzalez, Davis of 
California, Davis of Alabama, Ehlers, Lungren and McCarthy.
    Staff Present: Liz Birnbaum, Staff Director; Thomas Hicks, 
Senior Election Counsel; Janelle Hu, Election Counsel; Jennifer 
Daehn, Election Counsel; Matt Pinkus, Professional Staff/
Parliamentarian; Kyle Anderson, Press Director; Kristin 
McCowan, Chief Legislative Clerk; Daniel Favarulo, Legislative 
Assistant, Elections; Gregory Abbott, Policy Analyst; Gineen 
Beach, Minority Election Counsel; Ashley Stow, Minority 
Election Counsel; Bryan T. Dorsey, Minority Professional Staff; 
and Fred Hay, Minority General Counsel.
    The Chairman. Good morning, everyone. I will call this 
hearing to order. And good morning, members of the committee, 
witnesses and guests.
    Today's hearing will focus on the Uniformed Overseas 
Citizens Absentee Voting Act. Our men and women fighting 
overseas make many sacrifices to guarantee the freedoms that we 
enjoy. Our Nation can never fully repay that debt, but we can 
ensure that the freedoms they are fighting for are given to 
them as well as to us at home.
    UOCAVA assures the right of uniformed overseas Americans to 
participate in Federal elections by allowing the use of 
absentee ballots and, in case they are not received in a timely 
manner, the use of the Federal write-in absentee ballot. UOCAVA 
covers eligible Americans living abroad in addition to our 
military voters.
    I believe more can be done, which is why I called this 
hearing today, to find out what the Department of Defense and 
others are doing to ensure that every eligible man and woman 
who qualifies under this act registers, receives and submits a 
ballot for Federal office.
    The Government Accountability Office estimates that there 
are close to 6 million eligible voters. The EAC estimates that 
only 33 percent of the ballots requested by these citizens were 
cast and counted in the 2006 general election. That means that 
over 70 percent of the ballots requested are not being counted 
for office. I would like to hear from our witnesses proposed 
solutions to correct this problem.
    In 2007, the committee staff journeyed to several naval and 
Air Force bases and United States Embassies to talk to our men 
and women in uniform and civilians about their voting 
experiences. Many had positive things to say, but a few 
wondered why they were unable to receive and submit ballots 
electronically; why can't States adopt standard rules for 
voting in Federal elections.
    The EAC has issued several recommendations on 
administrating UOCAVA. I am interested in hearing if any of 
these recommendations are being implemented or other solutions 
are being weighed to ensure that all eligible Americans here 
and abroad have the opportunity to register and cast ballots in 
Federal elections.
    Lastly, it should be noted that overseas Americans will 
enjoy their voting bloc at the Democratic National Convention 
in August with 11 delegates. This is another step to include 
all Americans in the process.
    We can and must do better, especially for our men and women 
fighting for democracy not only in Iraq and Afghanistan, but 
all American soldiers around the world. And I look forward to 
hearing from our witnesses today, and I would like to recognize 
the Ranking Member, Mr. Ehlers, for any statement that he may 
have.
    [The statement of Mr. Brady follows:]

    [GRAPHIC] [TIFF OMITTED] T3118A.001
    
    [GRAPHIC] [TIFF OMITTED] T3118A.002
    
    Mr. Ehlers. Thank you, Mr. Chairman. Thank you for calling 
this hearing. And thank you also to our witnesses for joining 
us today.
    I certainly appreciate the need for taking action on this. 
I spent a year overseas at one point and found the entire 
process of voting was incredibly cumbersome. Of course, back 
then they were using the Pony Express, which made it more 
difficult. No, I am not quite that old.
    I also want to commend Representative McCarthy for his 
leadership in introducing H.R. 5673, the Military Voting 
Protection Act. This bill, which I am proud to cosponsor, 
ensures that military personnel are not left out of the 
election process while serving our country overseas. Just 
yesterday, Representative McCarthy's bill received a major 
endorsement from Vets for Freedom, which is the Nation's 
largest veterans' organization for those who have served in 
Iraq and Afghanistan. Their endorsement further reflects a 
strong desire of our Nation's servicemen and women to 
participate in the very freedoms that they protect each day 
from posts around the world.
    H.R. 5673 is also important because studies have shown that 
our military personnel overseas have cast votes that were not 
counted due to lengthy delivery times involved in returning the 
ballots to the United States. This, to me, is amazing in an era 
when we have package delivery companies, three major ones 
internationally, who can tell you at any instant where every 
one of their 23 million packages is located. There is no excuse 
in the world for not having a method of delivering those 
ballots here and delivering them quickly.
    In September 2007, the Election Assistance Commission 
released a report on military and overseas absentee voting 
which found that the third largest reason for rejected ballots 
was that they were received by the election offices after the 
deadline stipulated by State law. The EAC's findings also 
suggest that roughly 10 percent of all uncounted military and 
overseas absentee ballots were rejected because they were 
received past the required deadline. Ten percent amounts to a 
huge number of people.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T3118A.003
    
    [GRAPHIC] [TIFF OMITTED] T3118A.004
    
    [GRAPHIC] [TIFF OMITTED] T3118A.005
    
    [GRAPHIC] [TIFF OMITTED] T3118A.006
    
    [GRAPHIC] [TIFF OMITTED] T3118A.007
    
    [GRAPHIC] [TIFF OMITTED] T3118A.008
    
    [GRAPHIC] [TIFF OMITTED] T3118A.009
    
    [GRAPHIC] [TIFF OMITTED] T3118A.010
    
    [GRAPHIC] [TIFF OMITTED] T3118A.011
    
    [GRAPHIC] [TIFF OMITTED] T3118A.012
    
    [GRAPHIC] [TIFF OMITTED] T3118A.013
    
    [GRAPHIC] [TIFF OMITTED] T3118A.014
    
    [GRAPHIC] [TIFF OMITTED] T3118A.015
    
    [GRAPHIC] [TIFF OMITTED] T3118A.016
    
    [GRAPHIC] [TIFF OMITTED] T3118A.017
    
    [GRAPHIC] [TIFF OMITTED] T3118A.018
    
    [GRAPHIC] [TIFF OMITTED] T3118A.019
    
    [GRAPHIC] [TIFF OMITTED] T3118A.020
    
    [GRAPHIC] [TIFF OMITTED] T3118A.021
    
    [GRAPHIC] [TIFF OMITTED] T3118A.022
    
    [GRAPHIC] [TIFF OMITTED] T3118A.023
    
    [GRAPHIC] [TIFF OMITTED] T3118A.024
    
    [GRAPHIC] [TIFF OMITTED] T3118A.025
    
    [GRAPHIC] [TIFF OMITTED] T3118A.026
    
    [GRAPHIC] [TIFF OMITTED] T3118A.027
    
    [GRAPHIC] [TIFF OMITTED] T3118A.028
    
    [GRAPHIC] [TIFF OMITTED] T3118A.029
    
    [GRAPHIC] [TIFF OMITTED] T3118A.030
    
    [GRAPHIC] [TIFF OMITTED] T3118A.031
    
    [GRAPHIC] [TIFF OMITTED] T3118A.032
    
    [GRAPHIC] [TIFF OMITTED] T3118A.033
    
    [GRAPHIC] [TIFF OMITTED] T3118A.034
    
    [GRAPHIC] [TIFF OMITTED] T3118A.035
    
    [GRAPHIC] [TIFF OMITTED] T3118A.036
    
    [GRAPHIC] [TIFF OMITTED] T3118A.037
    
    [GRAPHIC] [TIFF OMITTED] T3118A.038
    
    [GRAPHIC] [TIFF OMITTED] T3118A.039
    
    [GRAPHIC] [TIFF OMITTED] T3118A.040
    
    [GRAPHIC] [TIFF OMITTED] T3118A.041
    
    [GRAPHIC] [TIFF OMITTED] T3118A.042
    
    [GRAPHIC] [TIFF OMITTED] T3118A.043
    
    [GRAPHIC] [TIFF OMITTED] T3118A.044
    
    [GRAPHIC] [TIFF OMITTED] T3118A.045
    
    [GRAPHIC] [TIFF OMITTED] T3118A.046
    
    [GRAPHIC] [TIFF OMITTED] T3118A.047
    
    [GRAPHIC] [TIFF OMITTED] T3118A.048
    
    [GRAPHIC] [TIFF OMITTED] T3118A.049
    
    [GRAPHIC] [TIFF OMITTED] T3118A.050
    
    [GRAPHIC] [TIFF OMITTED] T3118A.051
    
    [GRAPHIC] [TIFF OMITTED] T3118A.052
    
    [GRAPHIC] [TIFF OMITTED] T3118A.053
    
    [GRAPHIC] [TIFF OMITTED] T3118A.054
    
    Mr. Ehlers. The Military Voting Protection Act is designed 
to ensure absentee ballots submitted by military personnel who 
have little control over their geographic assignments are 
delivered to election officials in a timely fashion. While this 
bill only addresses ballots cast by those serving in our 
military overseas, it is an important first step in ensuring 
that all registered voters living abroad are able to cast a 
ballot. And for that reason, I thank Representative Maloney for 
her interest in ensuring that all civilians as well as military 
people are able to cast a ballot and have their votes counted.
    As we know, in addition to those who serve our country in 
the Armed Forces, there are millions of Americans living abroad 
who, despite the distance from their home district, look 
forward to casting their ballots in support of candidates in 
the United States. And I might mention, this is not true just 
of the Federal ballot, but also many of those abroad take a 
deep interest in local and State issues back home and really 
deserve to vote. Registered voters overseas should be able to 
cast their ballots with confidence; that they will be received 
and counted and the persons voices will be heard.
    I look forward to hearing from our witnesses today about 
potential solutions to addressing the challenges posed to our 
citizens living overseas who wish to exercise their right to 
vote. I am confident that the members of this committee can 
work towards finding a solution in a bipartisan fashion, 
because this is a bipartisan issue, an issue that will ensure 
that every legitimate vote is counted regardless of the 
location of the voter.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    [The statement of Mr. Ehlers follows:]

    [GRAPHIC] [TIFF OMITTED] T3118A.055
    
    [GRAPHIC] [TIFF OMITTED] T3118A.056
    
    [GRAPHIC] [TIFF OMITTED] T3118A.057
    
    The Chairman. Anybody else like to make a statement? Nobody 
else? Then I would like to welcome our distinguished panel. 
Congressman Kevin McCarthy represents the 22nd District of 
California and a Member of our House Administration Committee. 
And Congresswoman Carolyn Maloney represents the 14th District 
of New York and Chairman of the Financial Institution 
Subcommittee on the Financial Services Committee.
    I would also like to welcome Kevin McCarthy's wife and 
children: Judy; his son and his daughter, Connor and Meghan. 
Thank you for your participation. And for his wife, I have a 
nice list of very expensive restaurants. We will talk later.
    Thank you so much. I would like to now recognize the 
Honorable Kevin McCarthy.

   STATEMENT OF THE HON. KEVIN McCARTHY, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McCarthy. Thank you, Chairman Brady and Ranking Member 
Ehlers, for holding this important hearing today to look at 
ways we can improve military and overseas voting. Specifically 
I appreciate the opportunity to testify regarding a bill I 
recently introduced to ensure our troops' votes are counted. 
Also I want to thank my colleagues on the committee for joining 
in this discussion today to look into ways to protect the votes 
of our brave men and women defending us abroad.
    When I was first named to this committee I was proud to 
join a committee where Republicans and Democrats are known to 
work together to find solutions. I want to be active in looking 
at our elections and working for solutions that rightfully 
gives American voters full confidence in their vote to be 
counted and counted correctly.
    Last year I went to Iraq and Afghanistan and was honored to 
meet with our troops, who told me how proud they were to fight 
for our country. Every day our troops fight for our country. 
They fight for their mission. Most of all they fight to protect 
our Constitution and the democratic ideas that have carried our 
Nation forward for over 200 years.
    With that in mind, a recent EAC study on military and 
overseas voting reported that only 47.6 percent of absentee 
ballots requested by members of the military ended up being 
counted. I was appalled at the fact that so many votes of our 
military servicemen and women were not being counted, both 
because they were unable to get their absentee ballots as they 
serve abroad, and because their ballots were not counted 
because they might not have been received by election officers 
in time. Moreover, when votes are systematically uncounted 
because of lack of dependability on ballot deliveries, both 
stateside and abroad, our brave men and women serving our 
country cannot rely on the fact that their vote was counted. 
How ironic it is that our servicemen and women may not be able 
to participate in the very constitutional freedoms or democracy 
they are so courageously protecting.
    I have introduced the Military Voting Protection Act in 
order to help address one problem that could possibly be 
addressed quickly. According to studies, 23 percent of ballots 
arrive too late to be counted under deadlines applied by 
States. My legislation, cosponsored by my friends, Ranking 
Member Ehlers and Congressman Lungren, would amend UOCAVA to 
provide for expedient collection and delivery of overseas 
uniformed servicemembers' ballots. This bill would do so by 
directing the Department of Defense to make additional 
provisions for collection, transportation and tracking of 
absentee ballots of overseas uniformed service voters. It would 
allow the Department of Defense to do so by using private 
carriers, and would ensure that servicemembers have access to a 
tracking mechanism so they know that their ballot arrived and 
was counted. This ``expediting'' and this assurance is the 
least we can do for our men and women serving abroad defending 
our freedoms, like our democratic right to vote.
    With that said, I would like to work with all members of 
the committee. This bill is by no means a comprehensive 
solution to ensuring our servicemen and women that their votes 
will be counted. However, I believe it is a good first step 
that we can build upon in a bipartisan fashion so that our 
heroes abroad can participate in this year's historic 
Presidential election and Federal elections thereafter.
    We must do more to ensure the franchise of our military 
voters, and I stand ready to work with you, Mr. Chairman, our 
House colleagues, the military community, State and local 
officials, to strengthen and protect military votes.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    [The statement of Mr. McCarthy follows:]

    [GRAPHIC] [TIFF OMITTED] T3118A.058
    
    [GRAPHIC] [TIFF OMITTED] T3118A.059
    
    [GRAPHIC] [TIFF OMITTED] T3118A.060
    
    The Chairman. The Honorable Carolyn Maloney.

  STATEMENT OF THE HON. CAROLYN MALONEY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mrs. Maloney. Thank you so much, Mr. Chairman and Ranking 
Member Ehlers, for inviting me to testify today, and Zoe 
Lofgren and Mr. Davis and other members of the committee. I 
think that it is very important that we focus on the voting 
problems that are faced by military personnel and our overseas 
citizens.
    I also want to acknowledge the hard work of my colleague 
Kevin McCarthy and Representative Honda, who have likewise 
introduced legislation to improve overseas voting. I know that 
we all agree that regardless of political affiliation, all 
American citizens should be able to exercise their right to 
vote.
    I became interested in this issue through the census where 
we were working in a bipartisan way to count Americans abroad, 
both in the military and in our workforce. And as we moved to 
more of a globalized economy, we have, out of necessity, many 
Americans working and living abroad. Along with the military, 
their votes should be counted, yet it seems that election after 
election we are facing these same problems of lack of access to 
information, lack of access to ballots, and confusing 
procedures for submitting completed ballots to local and State 
election officials.
    Although I, Representative Honda and Representative 
McCarthy have all introduced bills designed to make the voting 
process easier, I fear that our efforts will be in vain because 
of the incompetence of the Federal Voting Assistance Program 
housed within the Department of Defense. The 2006 election 
sadly was the status quo for the Federal Voting Assistance 
Program. For example, only 33 percent of military absentee 
voters were even aware of the Federal Post Card Application, 
the form used to request an absentee ballot. Only 25 percent 
had received the Federal Post Card Application by the DOD 
deadline of January 15th. No wonder so few people voted. They 
didn't even get the application. And only 5 percent of Unit 
Voting Assistance Officers had delivered the Federal Post Card 
Applications to their personnel by the January 15th deadline.
    Lastly, the Federal Voting Assistance Program spent an 
astonishing $1.1 million on the Integrated Voting Assistance 
System, but only eight votes were traced back to the system.
    I have raised my concerns with the officials of the Federal 
Voting Assistance Program numerous times, both in writing and 
calls and in person, and yet the FVAP continues to spend 
millions in taxpayer dollars, and the situation for military 
and overseas voters does not seem to get any better. I truly 
believe that Congress must step in to provide the necessary 
leadership to ensure that the 3 to 6 million American citizens 
who live and work abroad or serve in our military are being 
represented at the State, local and Federal levels.
    Last year in a bipartisan way, along with Representative 
Joe Wilson, we founded the Americans Abroad Caucus in the hope 
that we can help give these individuals a voice in Congress. I 
have also introduced legislation, H.R. 4237, the Overseas 
Voting Practical Amendments Act, to make it easier for overseas 
voters to vote.
    According to the U.S. Election Assistance Commission, about 
two-thirds of the absentee ballots requested for the 2006 
elections by overseas Americans were not even counted. Ballots 
either weren't received in time, were sent to an incorrect 
address, or filled out incorrectly. Most of these errors result 
from the unnecessary complexity of the process.
    The practical amendments bill that I have introduced 
proposes simple, inexpensive fixes that will help change that 
and ensure the votes of every overseas American are counted. 
These changes include designating one official form as the 
overseas Federal voter registration and ballot application.
    Secondly, it would prohibit States from refusing to accept 
balloting materials because they are generated by a computer 
program. If we had one Federal ballot, then they could download 
it from computers on our bases and overseas and use it. States 
have refused ballots for really ridiculous reasons, such as the 
weight of the paper or really things that have absolutely 
nothing related to election fraud. I, for one, do not support 
Internet electronic voting. We are talking about paper ballots 
and not refusing paper ballots for silly reasons, which 
oftentimes they do.
    Thirdly, it would ensure that States provide correct 
information and sufficient postage on preaddressed materials to 
prevent overseas mail from going astray.
    And it would allow overseas voters to automatically receive 
requests for absentee ballots.
    It would extend the voting rights to American citizens' 
children born overseas who may have never spent enough time on 
any visits to the U.S. to establish residency before voting 
age. I have had several constituents whose sons or daughters 
have been living overseas with them, they become 18, and they 
cannot vote without moving back to the United States.
    We should give overseas voters more time to correct a 
rejection of their voter registration or absentee ballot 
requests prior to election day, and allow the State Department 
to help transmit the ballots of overseas voters in countries 
with inadequate mail service. Often in Third World countries, 
now citizens in other countries can vote at their consulates. 
This would allow in certain areas where there isn't a service, 
where our Peace Corps members are working, or some of our oil 
companies may be working, that they could vote at the consulate 
in their region.
    I believe that these basic improvements would go a long way 
towards improving the voting situation for our overseas 
citizens, and I look forward to working with my colleagues on 
both sides of the aisle as we move toward this new election.
    Mr. Chairman, I request permission to place in the record a 
CRS review of the legislation that I have put forward, an 
explanation of the need for this legislation, and also 
independent research in support of the legislation that I have 
put forward by the Pew Foundation in support of practical ways 
that we could improve overseas voting.
    I would just like to close that we are----
    The Chairman. Without objection.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T3118A.061
    
    [GRAPHIC] [TIFF OMITTED] T3118A.062
    
    [GRAPHIC] [TIFF OMITTED] T3118A.063
    
    [GRAPHIC] [TIFF OMITTED] T3118A.064
    
    [GRAPHIC] [TIFF OMITTED] T3118A.065
    
    [GRAPHIC] [TIFF OMITTED] T3118A.066
    
    [GRAPHIC] [TIFF OMITTED] T3118A.067
    
    [GRAPHIC] [TIFF OMITTED] T3118A.068
    
    [GRAPHIC] [TIFF OMITTED] T3118A.069
    
    [GRAPHIC] [TIFF OMITTED] T3118A.070
    
    [GRAPHIC] [TIFF OMITTED] T3118A.071
    
    [GRAPHIC] [TIFF OMITTED] T3118A.072
    
    [GRAPHIC] [TIFF OMITTED] T3118A.073
    
    Mrs. Maloney. Many of our Americans are serving overseas in 
our military, and they are serving overseas in American 
businesses. They are patriots, they are American citizens, they 
want to vote. We should work with them to streamline it and 
make it practical and easy for them to continue their 
citizenship and their right to vote overseas, particularly when 
they are in service of our country and in service of our 
American businesses and are working overseas in a global 
economy.
    I thank you very much for focusing on this issue. It is an 
important one. It deserves a thorough debate, and I believe it 
deserves action in this Congress. Thank you.
    The Chairman. Thank you.
    [The statement of Mrs. Maloney follows:]
    [GRAPHIC] [TIFF OMITTED] T3118A.074
    
    [GRAPHIC] [TIFF OMITTED] T3118A.075
    
    The Chairman. I thank the gentlelady and I thank the 
gentleman for your interest and your participation in this 
hearing.
    Anybody have any questions?
    Yes, Ms. Lofgren.
    Ms. Lofgren. I don't want to question our colleagues, but I 
would like to thank them both for taking the initiative to 
think about people overseas and how they can vote, certainly 
our military. It is absolutely essential we do that. And as 
Mrs. Maloney has mentioned, there are also other Americans who 
serve in the Peace Corps, in the Department of State and 
various activities. So I just thank them both, as well as Mr. 
Honda, for the attention, and yield back.
    The Chairman. I thank the lady.
    No other questions. Thank you. And again, thank you for 
your participation, and thank you for your interest.
    Mrs. Maloney. Thank you very much, Mr. Chairman, for 
focusing on this.
    The Chairman. Thank you.
    We would like to call our next panel up. We have Deputy 
Secretary Michael Dominguez, Deputy Under Secretary of Defense 
for Personnel and Readiness out of the Department of Defense. 
And prior to his appointment at Defense, Mr. Dominguez was an 
Assistant Secretary of the Air Force.
    Secretary Beth Chapman, Secretary of State of Alabama, 
recipient of numerous awards and honors for her public service, 
including recognition from the United States Selective Service 
Board.
    I welcome you and thank you for your participation.
    And, Mr. Dominguez, you can go first.

    STATEMENTS OF MICHAEL DOMINGUEZ, PRINCIPAL DEPUTY UNDER 
SECRETARY OF DEFENSE FOR PERSONNEL AND READINESS, DEPARTMENT OF 
     DEFENSE; AND BETH CHAPMAN, SECRETARY OF STATE, ALABAMA

                 STATEMENT OF MICHAEL DOMINGUEZ

    Mr. Dominguez. Mr. Chairman, thank you for convening this 
hearing to explore how we can improve our ability to ensure 
that UOCAVA voters have the opportunity to vote.
    I want to begin by acknowledging up front that serving the 
UOCAVA voter is challenging, and that challenge really emanates 
from four principal causes. First, within the military, the 
mobility and speed with which our Armed Forces can and does 
respond to national security challenges. So they are often not 
where we expect them to be at the time ballots arrive or 
ballots need to be cast.
    The second big challenge is the locales in which we find 
the UOCAVA voters; that is, both the military who will be 
forward-deployed somewhere on the battlefield, but also many of 
our civilian overseas voters. I note my wife was a Peace Corps 
volunteer in Korea well before the development of that country 
into a modern society. Where she served, it was not possible to 
get mail to and from her in any reasonable amount of time. She 
was not able to vote. There are others like her even today.
    The third challenge is our Federal system in which the 
registration procedures, primary dates, ballot printing, 
distribution and deadlines for receipt of the voter ballots are 
determined by a large number of independent jurisdictions.
    So three challenges that are--or three factors that make 
the UOCAVA challenge a big one.
    Now, our approach in the Department of Defense to 
exercising our responsibilities to serve the UOCAVA population 
is characterized by--in terms of addressing these challenges, 
characterized by partnerships with anyone who can help; that is 
State and local election officials, that is the United States 
Postal Service, that is nonprofit partners that you will hear 
from today and other Federal agencies. So partnerships is a 
major piece of our effort.
    The second is by expanding options beyond mail into 
electronic and Internet technologies.
    The third is by working with the States toward minimal and 
understandable standards that apply across the States, such as 
distributing ballots at least 45 days before the election so 
the ballots have time to get out there and back using the 
classic mail processes.
    And then lastly it is by extensive outreach and 
communication to the voters.
    Now, while we have made progress, and we must be mindful 
that the mail does work for a large number of UOCAVA voters, 
more remains to be done. In this regard the Internet does seem 
to hold some promise in reaching many of the hardest-to-reach 
UOCAVA voters.
    The Internet can be, however, a dangerous place. I call 
your attention to these statements in the June 2007 GAO report 
on electronic absentee voting. Page 11, ``we found that broad 
application of Internet voting presented formidable social and 
technological challenges. In particular we noted that 
challenges to remote Internet voting involve securing voter 
identification information and ensuring that voters secure the 
computers on which they vote. We also reported that because 
voting requires more stringent controls than other electronic 
transactions, such as on-line banking, Internet voting systems 
face greater security challenges than other Internet systems.''
    Now, the fiscal year 2005 National Defense Authorization 
Act laid out a path to overcoming these challenges. We are now 
engaged with the Election Assistance Commission and the 
National Institute for Standards and Technology on this work. 
In the meantime, we continue to support processes, systems and 
statutory changes that help the UOCAVA voters exercise their 
right as U.S. citizens to vote.
    On a final note, you have heard from the prior witnesses 
some statistics, and I just urge you to understand where those 
statistics come from. Many of the reports and studies have--by 
virtue of the methodology that they use cannot be extended to 
the overall population. These reports clearly indicate there 
are problems in serving the UOCAVA voter that ballots arrive 
late, ballots never get to the voter, ballots are rejected when 
they are received. These things do exist. But I urge the 
committee to understand these things in the magnitude that they 
report may not be extensible to the whole UOCAVA population. 
Our data, which are based on statistically sound approaches and 
methodologies, indicated that in the general election of 2004, 
73 percent of the military voted in that election. So many do, 
many are able to, but many are not.
    Mr. Chairman, members of the committee, thank you for your 
time and for this hearing, and I look forward to your 
questions.
    The Chairman. Thank you.
    [The statement of Mr. Dominguez follows:]

    [GRAPHIC] [TIFF OMITTED] T3118A.076
    
    [GRAPHIC] [TIFF OMITTED] T3118A.077
    
    [GRAPHIC] [TIFF OMITTED] T3118A.078
    
    [GRAPHIC] [TIFF OMITTED] T3118A.079
    
    [GRAPHIC] [TIFF OMITTED] T3118A.080
    
    [GRAPHIC] [TIFF OMITTED] T3118A.081
    
    [GRAPHIC] [TIFF OMITTED] T3118A.082
    
    [GRAPHIC] [TIFF OMITTED] T3118A.083
    
    [GRAPHIC] [TIFF OMITTED] T3118A.084
    
    [GRAPHIC] [TIFF OMITTED] T3118A.085
    
    [GRAPHIC] [TIFF OMITTED] T3118A.086
    
    [GRAPHIC] [TIFF OMITTED] T3118A.087
    
    [GRAPHIC] [TIFF OMITTED] T3118A.088
    
    [GRAPHIC] [TIFF OMITTED] T3118A.089
    
    [GRAPHIC] [TIFF OMITTED] T3118A.090
    
    [GRAPHIC] [TIFF OMITTED] T3118A.091
    
    [GRAPHIC] [TIFF OMITTED] T3118A.092
    
    [GRAPHIC] [TIFF OMITTED] T3118A.093
    
    [GRAPHIC] [TIFF OMITTED] T3118A.094
    
    [GRAPHIC] [TIFF OMITTED] T3118A.095
    
    [GRAPHIC] [TIFF OMITTED] T3118A.096
    
    [GRAPHIC] [TIFF OMITTED] T3118A.097
    
    [GRAPHIC] [TIFF OMITTED] T3118A.098
    
    [GRAPHIC] [TIFF OMITTED] T3118A.099
    
    [GRAPHIC] [TIFF OMITTED] T3118A.100
    
    [GRAPHIC] [TIFF OMITTED] T3118A.101
    
    [GRAPHIC] [TIFF OMITTED] T3118A.102
    
    [GRAPHIC] [TIFF OMITTED] T3118A.103
    
    The Chairman. Honorable Beth Chapman.

                   STATEMENT OF BETH CHAPMAN

    Ms. Chapman. Chairman Brady, Ranking Member Ehlers, 
committee members, specifically my colleague from Alabama 
Representative Davis, I am deeply honored to be today 
representing the great State of Alabama, the National 
Association of Secretaries of State and, most importantly, the 
men and women of the United States military.
    Please allow me to share with you a portion of a letter 
written to Congress. Quote, ``about 2.5 million men and women 
in the Armed Forces are of voting age at the present time, many 
serving in parts of the country distant from their homes. They 
are unable to return to their States to register or vote, yet 
these men and women who are serving their country, and in many 
cases risking their lives, deserve above all others to exercise 
the right to vote in this election year. The least we can do is 
make sure they are able to enjoy the rights they are being 
asked to fight to preserve,'' end of quote.
    These words, so eloquently written, expressing exactly how 
I feel, and the heart and soul of today's subject, are not my 
words. Ironically, they are the words of President Harry S. 
Truman in a letter to Congress 55 years ago.
    Today we gather five-and-a-half decades later with no 
solution and, frankly, no acceptable excuses. With computer 
technology achieving what once seemed impossible, with numerous 
trips to the moon and beyond, cars that park themselves, robots 
that sweep and vacuum our floors, and running shoes with 
computer disks that track our distance, the problem of not 
allowing our men and women in the military every opportunity to 
vote is a travesty of justice.
    Throughout the years the full right of democracy has 
ensured racial and gender equality and has paved the way for 
those with disabilities; however, it has failed to meet the 
needs of the very ones who fight for our freedom. America 
should no longer keep democracy within the confines of the 
voting booth. If our military voters cannot come to a voting 
booth, then we simply must take the voting booth to them.
    I hope that no one will ever stand 55 years from now where 
we are standing today and quote from this speech as I have done 
from President Truman's. To allow that to happen would be 
blatant disrespect for our military and a shameful slap in the 
face of democracy.
    There are three companies located in America that are 
already providing safe, secure internet voting in other 
countries. America is not accustomed to being last in anything, 
and now is not the time to start. From our greatest 
vulnerability must come our greatest strength, a sound 
democracy.
    Members of our military should have this opportunity in 
2008 because they created the Internet; therefore, I think we 
can trust them to use it securely as they do every day through 
their Common Access Cards, Army Knowledge Online Intranet where 
they check their bank accounts, their retirement benefits, e-
mail their families, and other business of a confidential 
nature.
    Members of our military, unlike other citizens abroad, do 
not choose to live there, nor do they have any choice in how 
often their families are uprooted and moved or for what amount 
of time. We must not ask them to fight for a freedom they are 
not allowed to have. Private air transportation companies, as 
has been pointed out, provide ways to stop this injustice and 
help our military vote.
    There are only 144 business days left until this country 
elects a new President. There must be a resounding sense of 
urgency among us today. Time is of the essence. Congressman 
McCarthy's bill would provide for an immediate solution to this 
urgent need by directing the Presidential designee under UOCAVA 
to establish procedures for picking up and delivering ballots 
with tracking accessibility to ensure that votes are counted. 
However, it does not dismiss the need for notaries or witnessed 
signatures because there must be a certain level of integrity 
maintained in the sacred process.
    The key to H.R. 5673, as I see it, is to carefully treat 
the democratic process much like a surgeon operates on a vital 
organ of the body; he opens it up, cuts through the surface, 
and maneuvers around tiny vessels without nicking a major 
artery. Likewise, we must open the democratic process just 
enough to repair it to expedite the military's vote without 
opening it wide enough to bleed it of its integrity and risk 
the infectious disease of fraud. It is a life-threatening 
surgery of the democratic process we must perform, and the 
question remains is it worth it? I say, in an effort to provide 
democracy to the very defenders of that democracy itself, it 
is.
    The Chairman. Thank you.
    [The statement of Ms. Chapman follows:]

    [GRAPHIC] [TIFF OMITTED] T3118A.104
    
    [GRAPHIC] [TIFF OMITTED] T3118A.105
    
    [GRAPHIC] [TIFF OMITTED] T3118A.106
    
    [GRAPHIC] [TIFF OMITTED] T3118A.107
    
    [GRAPHIC] [TIFF OMITTED] T3118A.108
    
    The Chairman. You both, I assume, heard Congresswoman 
Maloney's testimony where she asked about one form for 
registration for the ballot. I understand there are many forms 
out there. And she also talked about refusing ballots or 
refusing to accept the vote or refusing to give them the ballot 
because of the paper or different discrepancies in the paper, 
and one last thing, the postage sometimes is incorrect. I mean, 
is there anything that we are doing to correct those things? 
They seem relatively easy. I understand that the one form may 
be a little bit of a problem, but it is nice to have everything 
uniform to make it easier to allow our people to vote. Anyone?
    Mr. Dominguez. Sir, if I could start, I think the Congress 
has already addressed the issue of the standard form for ballot 
requests and delivery through the Federal Post Card Application 
that they mandated the States accept for Federal elections, and 
through the Federal write-in absentee ballot that the Congress 
mandated the States also accept for Federal election purposes. 
We do, it is true, have problems with some States or largely 
localities who don't get the word and who take actions to 
reject some of these things. When we find out about it, we are 
able to intervene and correct those. But I think the 
legislation here, the act of the Congress or will of the 
Congress has already been expressed.
    Ms. Chapman. Yes, sir, Mr. Chairman. In Alabama, we are now 
on line with the Overseas Vote Foundation, which you will hear 
much more about in later testimony. We have tried everything we 
can to streamline into one card. We used the FVAP voter 
registration card, and that is very standard.
    But, yes, with Congresswoman Maloney's comments earlier, 
there are guidelines as State elections officials that we must 
follow that have been set for us.
    The Chairman. In Alabama you have provided no data to the 
EAC yet?
    Ms. Chapman. When you say ``data,'' to which data are you 
referring?
    The Chairman. For the most recent reports on how many 
UOCAVA ballots are requested or counted.
    Ms. Chapman. No, sir, because I have only been Secretary of 
State for a little over a year now, so in the past elections 
that information, I am embarrassed to say, was not provided, 
but will be provided in this election.
    The Chairman. Okay. Thank you.
    Anybody else have any questions?
    Mr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman.
    Mr. Dominguez, I am a little concerned about the statement 
you made that you can't keep track of all the people in the 
military, and you don't always know where they are. Early in my 
testimony I commented about the fact that FedEx and the other 
companies keep track of 23 million packages a day. I would 
think you might want to try using their technology, or else 
just give each of them a FedEx box and have FedEx follow the 
box. I understand in a battle situation, when you are in 
action, you can't keep track of everyone very clearly, but the 
majority of your forces and their dependants are relatively 
stable, and I would hope that is not a problem to keep track of 
them for voting purposes.
    I don't know if you have tried various innovative ways of 
working with secretaries of state and local election officials 
to ensure that they get the ballot application on time and get 
their ballots in on time. What are you trying to do to correct 
that situation if you can't keep track of them?
    Mr. Dominguez. Sir, I apologize if I misled you. We can 
absolutely keep track of them. The point I was trying to make, 
obviously not very effectively, is that people--let us take an 
example of the Guard and Reserve--people can be mobilized, 
particularly in the case of a national emergency, where they 
had a full expectation of being home and able to vote, and then 
because of a national crisis and the speed and mobility with 
which our Armed Forces now respond to a national crisis, that 
person can be way, very far away from the State or locality in 
which they were planning to vote. And that can happen 
overnight. And so that the second example is, as you 
mentioned--is the mobile warriors on the battlefield.
    So we assign people to forward-operating bases, and we know 
where they are, and we know that is where they get their mail. 
Unfortunately they can be gone from that location maneuvering 
in the field for 2 and sometimes 3 weeks during that critical 
period of the transmission of the mailed ballots.
    So those are realities of the speed and agility that you 
can take pride in from your Armed Forces. They create problems 
not in us knowing where they are, but in the traditional mail 
processes of being able to get them. That is why I said in my 
opening statement that I believe the Internet is going to be a 
contributor to closing this gap and the gap that applies to 
some of our civilians overseas as well.
    But specifically now to answer your question about what we 
are doing, it is that extensive outreach campaign to try to get 
information to voters; get voting materials out to voters and 
get them to recognize that they can vote; they can download and 
use the Federal write-in absentee ballot and send that in even 
if they haven't received their State ballot, so as long as they 
are registered, and that if they are going to be gone, or they 
know they are going to be gone, use that ballot and vote and be 
counted.
    Mr. Ehlers. Thank you.
    The Chairman. Any other questions?
    Mr. Davis.
    Mr. Davis of Alabama. Thank you, Mr. Chairman. I want to 
welcome my secretary of state here today. And, Mr. Chairman, 
neither Ms. Chapman nor I have a genuine Alabama accent, so we 
will endeavor to get an Alabamian with broader vowels; neither 
one of us can really put that in the record.
    I only have one line of questions. First of all, thank you 
for the job you do. By definition, Secretary Chapman, it is 
impossible to be a good secretary of state without being 
bipartisan, and the ones who have gotten in trouble have 
forgotten that, and the ones who do their job well day in and 
day out remember it. So I thank you for remembering that.
    I want to ask you only one question. As you recall, before 
you became secretary of state, Alabama and a few other States 
were sued by the Department of Justice because our runoff 
election procedure in primaries bumped up against the timetable 
for getting absentee ballots from overseas service persons, and 
the Alabama remedy to that suit was to extend our runoff 
period. Now, it so happened in 2006 this was kind of a tree 
falling in the forest. A lot of people missed it, because, as 
you know, a lot of incumbents ran for reelection in 2006 at the 
statewide level, and there was only one high-profile statewide 
runoff, and that was for Lieutenant Governor in your party. And 
frankly, a lot of people are still not aware that we have 
extended our runoffs to 6 weeks.
    Now, fast forward to 2010 when there is a certainty of the 
Governor's race being open, and likely contested battles in 
both parties, a likelihood because of the Governor's race being 
open and various other offices opening up as people run for 
Governor. There could well be as many as eight or nine State 
runoffs in both parties. And a number of criticisms have been 
raised, and they tend to go along two somewhat different but 
interesting lines.
    One argument is that the 6-week runoff period is very 
burdensome to the candidates. As someone who won my seat in the 
runoff, I can certainly tell you a 3-week period requires you 
to raise an enormous amount of money; a 6-week period only more 
so. And frankly, the voters often aren't happy because in a 6-
week runoff campaign, you essentially start from scratch.
    The other argument that people raise is along a different 
track, and it deals with the fact that people just don't tend 
to come out to vote on a runoff. And in Jefferson County, for 
example, there were, on the Democratic side, three runoffs in 
2006 at the legislative level. House districts are roughly 
20,000 to 25,000 people in Alabama. There was a turnoutout of 
7\1/2\ percent in one of those districts. Someone won with 
1,800 votes to 1,500 for the adversary. In another district 
there was a turnout of 12\1/2\ percent, and I think the high 
turnout was 20 percent, all of those abysmally low. And people 
raised the valid concern, I think, that when you have a 6-week 
period, especially in a State that is not accustomed to that, 
you get very, very low turnouts.
    Are there any remedies the Alabama Legislature could adopt 
for 2010 that would enable us to go back to our 3-week runoff 
campaign?
    Ms. Chapman. With great respect, sir, I can never propose 
to speak on behalf of the Alabama Legislature.
    Mr. Davis of Alabama. Neither you, nor me, nor anybody 
else.
    Ms. Chapman. And if you would like for me to answer this in 
my dialect of the original Southern dialect so that everyone 
can hear it here today, I will be happy to do so.
    The Alabama Legislature has many things before it with 
regard--as you know, HAVA compliance, federally we are now HAVA 
compliant. We were very far behind, I am once again embarrassed 
to say, but we are catching up. There are a lot of questions 
before them.
    But I think your question of voter turnout is very 
pertinent. A lot of that, I believe, in the past has just been 
due to lack of education. And in this last primary that we had, 
the first Super Tuesday in Alabama, we had a record number of 
voters. I believe that in November we will have a tremendous 
number of voters that have never voted before, and that is good 
for democracy. Regardless of which side of the aisle they are 
voting for, I think that is a good thing.
    But with regard to the legislature, yes, sir, there are 
many things we will be discussing. One of them is a military 
and overseas voting task force that we have established. We 
will be presenting some times--some legislation regarding time 
lines. As you know, if someone from overseas, military or 
nonmilitary, tries to apply to vote, the whole process from 
beginning to end could take up to 42 days, which is a month and 
a half. Totally inexcusable.
    So, yes, sir, there are a lot of things that we hope to be 
doing, and certainly hope to prevent any more lawsuits from the 
Department of Justice.
    Mr. Davis of Alabama. Thank you, Mr. Chairman.
    The Chairman. Mr. Lungren.
    Mr. Lungren. Thank you very much for your testimony. Let me 
just ask a couple of questions and see if I got this right.
    Mr. Dominguez, as I understand it, there is a specific 
absentee ballot application that is standard that can be used 
for voters in all States if they are in the military; is that 
correct?
    Mr. Dominguez. Yes, sir. There is a standard Federal Post 
Card Application, which is an application for registration and 
for a ballot that is standard across all voting jurisdictions 
for the UOCAVA voters.
    Mr. Lungren. Secondly, you said something about a back-up 
Federal ballot. And could you explain to us exactly what that 
is?
    Mr. Dominguez. Yes, sir. The Federal write-in absentee 
ballot anticipates the problem of a ballot from a local 
election official not getting to a voter who wants to 
participate in a Federal election. And the Congress has 
mandated that this ballot, which is--we distribute blank ones 
so it is available through voting assistance officers. It is 
also downloadable from the Web. You can download that ballot, 
write in the candidate selections that you prefer----
    Mr. Lungren. For Federal elections.
    Mr. Dominguez [continuing]. For Federal elections.
    Mr. Lungren. In your jurisdiction.
    Mr. Dominguez. And then pack it up and mail it to the local 
election official in your jurisdiction.
    Mr. Lungren. So it is a blank one where I would write in 
Congressional District 3, California, and put a person in my 
district there?
    Mr. Dominguez. Right.
    Mr. Lungren. So that obviously I need to have the 
information as to who is running and do it correctly.
    Mr. Dominguez. Right.
    Mr. Lungren. Now, and maybe I should address this to both 
of you, in terms of the State, is there a specific obligation 
that the State must accept that so long as it follows the 
parameters established under the Federal law?
    Mr. Dominguez. Yes, sir.
    Mr. Lungren. And is that the case in Alabama; you would 
receive this, and so as long as it comported with the 
requirements under Federal law, you must accept that as a 
legitimate vote for that particular race?
    Ms. Chapman. Yes, sir.
    Mr. Lungren. Are either one of you aware of any problems 
with respect to State authorities or their subdivisions 
accepting those? Have we had a problem with that?
    Ms. Chapman. The biggest problem we have had is in 
receiving the actual ballots and not having two witnesses or 
one notary, which in our State is what the requirement is.
    Mr. Lungren. So if someone is on the battlefield, and they 
have to fill this out they need a notary? No, I am being 
serious.
    Ms. Chapman. If they are voting absentee, yes, sir, they 
must have a notary or two witnesses.
    Mr. Lungren. Or two witnesses?
    Ms. Chapman. Yes, sir, it is an either/or.
    Mr. Lungren. And that is anticipated, I expect, by the 
Federal legislation; that is, that that is an acceptable 
requirement for a State?
    Ms. Chapman. Yes, sir. And because Alabama falls under 
section 5 of the Civil Rights Act, everything we do must be and 
presently is approved by the Department of Justice.
    Mr. Lungren. Then it seems to me, as I understand it, the 
problem is not that we haven't provided back-up mechanisms in 
order to allow for someone to vote even if they are not where 
they are supposed to be, or even if they did not receive the 
official ballot from the State, it is a question of delivery to 
them and then delivery back to the appointed authorities in the 
State by the time certain? Would that be correct; is that the 
problem we are really dealing with?
    Ms. Chapman. In our situation that is a huge part of the 
problem. Another aspect that you have not mentioned is a lot of 
those come back to us not fully completed once again, which is 
why Alabama was so attracted to the Overseas Vote Foundation 
system, because you fill it out on line, and it will not print 
it for you if there are any errors on it. Say if you left off 
your ZIP code, or you did not provide the proper information, 
then it corrects it before it prints it. So we hope that that 
will solve a lot of those problems for us.
    Mr. Lungren. I have a problem with us going to Internet 
voting per se. I have no problem with using the Internet 
providing the ballot to you so that then you can execute the 
ballot and then have it delivered. Is that system possible 
today?
    Ms. Chapman. I believe it is. I have seen demonstrations 
where I have been shown that it is. We do not presently use it. 
But with OVF, keep in mind it is only voter registration, it is 
not voting.
    Mr. Dominguez. Congressman, if I might as well. Yes, what 
you described is possible, and, in fact, the Congress 
appropriated money to the Department for us to go out on a 
competitive solicitation for the development of that technology 
and fielding it in the 2008 general election.
    Mr. Lungren. Mr. Dominguez, I appreciate the concerns that 
you have expressed and the difficulty that is inherent in us 
making sure that we get the numbers up in terms of 
participation and in terms of getting the valid vote received 
in a timely fashion. But even if someone is away from where 
they are supposed to be, I would presume that you are making an 
effort to get these write-in ballots available to everybody no 
matter where they are, certainly before this next Presidential 
election is coming up, because we know that is a date certain 
for everybody, correct?
    Mr. Dominguez. Yes, sir. And we have an extensive outreach 
campaign. Every unit has a voting assistance officer. Every 
installation has a voting assistance officer. Those people are 
charged with reaching out to and educating that population. And 
those people, in the case of people on the battlefield, you can 
back up and you say, okay, if you don't have your State ballot 
today, then you need to download or use--here, here is a 
Federal write-in ballot; you can vote today and get that in.
    Mr. Lungren. Is there a way, therefore, for us to make sure 
that we expedite the receipt and delivery of those to the 
States in time? And, again, I am not against the U.S. Post 
Office, but most of us in our work, frankly, use UPS or use 
FedEx as much if not more than we do, and is that available; is 
that something we need to have?
    I mean, I am just concerned. It sounds like we have done in 
the Congress the kinds of thing that we needed to do to make 
sure you get back up; the question is delivery. This isn't 
rocket science.
    Mr. Dominguez. Yes, sir. And I want to say I am pleased to 
report an extraordinary partnership with the U.S. Postal 
Service. And they do absolutely expedite and give special 
handling procedures to election materials, and they will start 
that process in about September.
    Mr. Lungren. But can you know--for instance, I can go on 
line right now, and I can find out--if I send something by UPS 
or FedEx, I can, without calling them, find out exactly where 
my document is. I mean, they will tell me where it has gone 
from here to wherever their collection facility is, to when it 
goes to California, to what truck it is on. I can find that out 
immediately. I can't find that out from the post office.
    It seems to me if we are worried about getting our votes in 
on time for men and women in uniform around the world fighting 
to preserve our ability to vote, we ought to make every effort. 
And if it means competing with the post office, again, I am not 
against the post office, but if it means putting competition 
out there until they have a like system, maybe that is what we 
ought to do.
    Mr. Dominguez. Sir, I will defer to the Postal Service on 
their ability to track and know where all those documents are. 
I do say, though, that they have taken extraordinary measures 
working with us to expedite the movement of these materials 
during that preelection period. And the military postal service 
agency does that from the battlefield back to these ports of 
entry into the United States where we turn it over to USPS.
    Ms. Chapman. Representative Lungren, to make some comments 
about your question, the future appears inevitable that the 
Internet in some shape, form or fashion be used in the 
democratic process. And we are dreaming here, and we are 
looking to the future, but ideally when the military transports 
or deploys someone, we are looking for a system that will 
actually make that address correction back on their voter 
registration form, because a huge number of ballots and 
applications come back for insignificant, incorrect addresses. 
We have spoken with men and women of the military who have been 
moved 23 times in two years.
    So for us as State and local election officials, that is 
part of the problem is mail being returned to us for 
insufficient addresses. And I might add that the National 
Association of Secretaries of State unanimously supported a 
resolution in 2004 encouraging expediting votes in the very way 
that you just mentioned. And I certainly, as a Secretary of 
State myself, certainly support that and brought that to the 
attention of my Governor and my legislature in 2003. So we are 
a little behind. We need to catch up.
    Mr. Lungren. I just want to make sure we do it before the 
next election. I ran for Governor in California. If I had only 
gotten 1.2 million additional absentee ballots, I might have 
won. Maybe we can work on that, and I will try again.
    Ms. Chapman. Well, time is of the essence, and this is an 
urgent situation. Thank you.
    Mr. Lungren. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Gonzalez.
    Mr. Gonzalez. Thank you very much, Mr. Chairman. My 
apologies to one and all for my tardy arrival. I was at another 
hearing that . . . my presence was absolutely required.
    I didn't hear the testimony, and I apologize, but it would 
appear to me, and maybe we will all get in some sort of trouble 
here, it is not just all overseas ballots. And I would like to 
concentrate on members of the armed services. And the 
difference there, of course, is that they don't really have a 
choice. They are following an order. Anyone else that finds 
themselves overseas, it is their own volition. Even if they are 
a government employee, they don't have to take the assignment 
or they can even quit. When you sign up and you put on that 
uniform, there's no saying no. So I think there is a 
distinction. So let us start off with that basic point. They 
don't have a choice.
    The second observation is just the noninvolvement, whatever 
problems you may have. Whether you do have the military voter 
exercising the voter vote, for whatever reason it's not there 
in the percentages that it should be. And when they attempt, 
they are frustrated in greater percentages than should be. I 
think we probably can agree on a couple of those basic facts.
    The trouble I have is, Why don't we utilize the Internet 
more extensively? Why can't Congress? And I know in your 
written testimony, Ms. Chapman, or Secretary Chapman, you do 
point out that I think the Governor has a commission or a study 
group, and that you say that sooner or later we will have 
Internet voting and such. Well, I think the time is now, and I 
think we agree on that.
    My staff also told me, though, that I believe that Mr. 
Dominguez might have a reservation as to the potential fraud. 
But I really believe in a military situation, with military 
personnel, how great a threat is fraud in the context of using 
the Internet, which is probably the most efficient way of 
casting the ballot and counting the ballot? I think we need to 
start thinking in those terms. And we struggle, and we have our 
differences of opinion on where fraud may be happening and what 
we do to prevent that without impacting the legitimate voter 
and accommodating the exercise of the vote by a greater number 
than we have presently in this country today, and especially by 
our citizens overseas. What is the problem with fast-forwarding 
and utilizing the Internet as the vehicle for the registration, 
the filing, and voting?
    Mr. Dominguez. If I can start. The first thing is that it 
is the Government Accountability Office, a quote from a study 
that I read in my oral statement, that has, among others, 
raised the issue of security and the special security needs 
relating to Internet voting. So consistent with that finding 
and the advice from people who participated with us back in the 
secure--the SERVE project we tried to do at the request of the 
Congress in an Internet voting occupation, security concerns 
were raised there, subsequently ratified by the GAO in their 
study of 2007, I think June 2007, pointed out that there are 
these special security concerns. Now, the Congress has 
legislated that we move to internet voting, and the NDAA, 
National Defense Authorization Act for 2005, and the process 
that Congress laid out was for the Election Assistance 
Commission and the National Institute for Standards and 
Technology to define the standards, you know, for how this 
would work. And subsequent to the definition of those 
standards, particularly with regards to how you deal with the 
security problems, the Department will develop the applications 
to allow that to happen.
    We are prepared to go. We have shared all the information 
we have with the EAC. Our teams are meeting. I am hopeful that 
the EAC and NIST will provide their standards here shortly. It 
is not going to be available for the 2008 election obviously, 
but there is no reason why we can't have that in place for the 
next general election beyond that, sir.
    Mr. Gonzalez. Secretary Chapman.
    Ms. Chapman. Representative Gonzalez, first of all, let me 
say that I believe all Americans overseas certainly have a 
right to vote. In my testimony I did become much more specific 
with regard to military voting, for the same reasons and more 
that you use, so I certainly concur with that.
    More importantly, I think we need to recognize all overseas 
voters do not have a system already in place. The United States 
military already has Intranet and Internet systems in place 
that they are already performing confidential business over 
every single day. In addition, they created the Internet. So it 
is a little bit different. And I think for that reason, I 
advocate very strongly for the military to be allowed some type 
of privilege in the general 2008 election.
    You asked the question about fraud. From the conversations 
I have been in and the summit that I recently attended in 
Munich, many meetings in Washington, and with fellow 
secretaries of state, the fraud is not, in my opinion, as much 
of a concern for people in the voting process as it is from the 
hacking perspective over the Internet. I think that is what 
scares people most.
    I will also go a step further by saying that I would trust 
FedEx, UPS and the Internet, if properly maintained, with my 
ballot sooner than I would some ballot boxes in some 
courthouses across America. To me it is equally as protected, 
if not more so.
    And to answer your question what is holding us back, in my 
State legislation, I must have legislation to use Internet 
voting or any new, innovative, progressive approaches in this 
arena, or a Federal mandate. So that answers your question as 
to what is holding us back.
    Mr. Gonzalez. Thank you very much.
    I yield back, Mr. Chairman.
    The Chairman. Thank you.
    Mr. McCarthy.
    Mr. McCarthy. Thank you, Mr. Chairman.
    To Mr. Dominguez, just kind of following up on some of what 
Mr. Lungren was saying, and you referring back that you have 
come into an agreement with the U.S. Post Office. It is my 
understanding that there was a recent meeting in Germany of 
UOCAVA, a summit, 2008.
    Mr. McCarthy [continuing]. And I have a press release here 
from April 4 where FedEx, the world's largest transportation 
company, is a sponsor of the nonprofit foundation. And I don't 
quite understand all that they are doing. But are you familiar 
with this? Are they partnering up? And they say they are 
partnering, using their global network, ``FedEx will deliver 
ballots from voters--countries of residence back to the voting 
authorities in their home States. Information of what overseas 
residents should do, details about the access on FedEx 
services.'' Have you talked to them or UPS? Or do you only talk 
to the Postal Service?
    Mr. Dominguez. No, sir. The members of the Federal Voting 
Assistance Program on my staff were at that conference that was 
initiated--done at the initiative of the Overseas Vote 
Foundation, one of the great partners that we have, and there 
are many, working through these problems, trying to close those 
gaps. So we were at the conference. And our partnership is open 
to everybody who will help us exercise our responsibility to 
the Federal Government to close this gap and support UOCAVA 
voters.
    I personally am not familiar with the specific proposals 
that, you know, FedEx may have put on the table, but my staff 
is. They are aware of them, and they are working with whoever 
can help under the law.
    Mr. McCarthy. Can your agreement with what you have done 
with the Postal Service, is that exclusive to the Postal 
Service? Or could you utilize FedEx, UPS, DHL, any other known 
individual that could track and meet the requirement?
    Mr. Dominguez. Sir, I will have to take that question for 
the record and provide you an answer. I am not--I don't know 
the law and the restrictions that govern us and the ballot 
transit process as well as my staff. So I will consult with 
them to get you an answer.
    Mr. McCarthy. One of the things that I have heard, I mean, 
we understand it is going to take a comprehensive bill to 
apply. One, you raise the issue of knowing where everybody is 
at, being able to respond. And that will probably take longer 
than this general election. And listening to Secretary of State 
Chapman, there are 144 business days to go. I think the one 
thing that we can achieve is making sure the vote counts, 
knowing the statistics were that 23 percent do not. And being 
able to track and go forward, I think that is something we can 
achieve this election. And I would really like to work with you 
and the secretaries of state as well as this committee to make 
sure we can do that, knowing that you are talking to the Postal 
Service. But here we have FedEx actually offering. But it is 
not to military personnel. It is actually to overseas citizens. 
My priority would really be to military personnel over there, 
much like what Mr. Gonzalez said because they didn't have a 
choice. They were told where they were going.
    So having said that, I would yield back, unless anybody has 
any comments to my statements. Ms. Chapman.
    Ms. Chapman. One would be in defense of the United States 
Postal Service, they cannot deliver and return mail from 
addresses that are incorrect. So I do want to say that for the 
record.
    And secondly, unless Congress passes legislation 
immediately and mandates it, I and the State of Alabama and my 
staff cannot accept a ballot by any other means than postal or 
in person. And that is not--you know, not something that I am 
happy about. But it is the law. And as you know, we must follow 
them.
    Mr. McCarthy. So are you familiar--have you heard of this 
FedEx?
    Ms. Chapman. Yes, sir. I have.
    Mr. McCarthy. And could you elaborate? Do you know much of 
the plan? I mean, if they have FedExed a ballot to you, could 
you not accept it then?
    Ms. Chapman. I cannot under my present laws unless Congress 
or the Alabama Legislature comes up with legislation and 
mandates that that be the case. I cannot at this point, which 
saddens me greatly.
    Mr. McCarthy. Because our law may stop us from solving the 
problem. But if we were to act quickly, you could accept it 
then.
     Ms. Chapman. Very quickly. And the 144 days cannot be 
stressed enough.
    Mr. McCarthy. I appreciate both of your testimonies. I 
yield back.
    The Chairman. Thank you all.
    We would like to call our next panel up, please. Good 
morning and thank you for being able to participate. Ms. 
Susan--can I just do the Ms. Susan Suinat before I butcher 
that? Ms. Susan Suinat is the CEO of the Overseas Vote 
Foundation, widely recognized as an innovator in voting 
technologies. Mr. Kimball Brace, President of Election Data 
Services, Inc., has worked for 13 States on congressional and 
legislative redistricting.
    Ms. Susan, you are up first. Thank you.

 STATEMENTS OF SUSAN DZIEDUSZYCKA-SUINAT, PRESIDENT, OVERSEAS 
 VOTE FOUNDATION; AND KIMBALL BRACE, PRESIDENT, ELECTION DATA 
                         SERVICES, INC.

             STATEMENT OF SUSAN DZIEDUSZYCKA-SUINAT

    Ms. Dzieduszycka-Suinat. Thank you, Chairman Brady, Ranking 
Member Ehlers, committee members. Thank you for the opportunity 
to testify today at this important hearing.
    My name is Susan Dzieduszycka-Suinat, and I am President 
and CEO of Overseas Vote Foundation. We are a nonprofit 
nonpartisan 501(c)(3) public charity organization, and we are 
dedicated to serving the needs of--the voter registration needs 
of our uniformed services members and overseas American 
citizens who wish to participate in Federal elections.
    Overseas Vote Foundation has four core activities. The 
first is to develop and provide online tools and services that 
simplify the overseas and military absentee voter registration 
process. We provide UOCAVA service programs to the States as 
well. We provide voter support and outreach programs, and we 
conduct research regarding the UOCAVA process.
    Our Web site, overseasvotefoundation.org, provides six Web 
applications which are user friendly and compliant to the 
Federal voting assistance guide. The first is an online voter 
registration tool, which simplifies the complex processes that 
differ between the States for registering with the common 
Federal postcard application, and the election official 
directory, which lists all election official jurisdictions in 
the country and their complete contact data, Web sites, mailing 
and, physical addresses. A voter help desk which provides 
personalized and automated knowledge-based services. We have a 
State-Specific voter information directory, which provides 
election dates and deadlines by State, and a write-in absentee 
ballot generator for those whose ballots are lost or late.
    We also have an optional service called a voter account 
service, which allows voters to maintain their information on 
our site. Our data is hosted by Server Vault based in Dulles, 
Virginia, and they count DOD and DIA among their government 
clients.
    For the States we have created a host assistance program, 
which enables them to take the entire OVF software suite and 
have their own customized design and provide UOCAVA services to 
their voters from their States. To date, Alabama, Kentucky, 
Minnesota, Ohio and West Virginia have signed agreements with 
OVF to license our software services for their own State UOCAVA 
voter services sites.
    Results to date, a few high points. First, our site action 
tracks very closely to election activity and worldwide news 
coverage. The total site visits through the end of March 
reached 718,000. Site visits on Super Tuesday alone were over 
45,000. Note that we do not report on hits because that can be 
very misleading; there were 12 million of those. We report on 
visits where voters come to the site and actually do something. 
From actual registrations to date this year, we can see that 
first-time overseas voters represent 70 percent of the total 
registrants to our site, that young voters represent 30 
percent, that is 18- to 29-year-olds, and that U.S. military 
networks are the second largest source of visitors to the OVF 
Web site. Military registrants have grown from 3 percent to 
13.4 percent this year.
    I would like to summarize four concrete initiatives taken 
by OVF in 2008. The first is the 2008 ballot return initiative 
with FedEx. They will work together with us in 2008 to deliver 
ballots from voters around the world back to their election 
offices. This includes the military.
    Second is a military site released earlier this month, and 
that provides the full complement of voter services which I 
outlined to uniform service members and their families.
    Thirdly, a low bandwidth option. This is a site for 
military voters and those in remote sites around the world. OVF 
will launch a reduced-graphics site which uses less bandwidth 
and has faster performance. The objective is always to increase 
the voter accessibility.
    The final initiative, as mentioned earlier, we did conduct 
our second annual summit on overseas and military voting in 
Munich, where we brought together agencies with overseas 
citizens, members of the military, technologists, innovators, 
students and election officials, all with the goal of tackling 
UOCAVA voting challenges.
    Two key concerns that we have in 2008. The first is to 
address known practical issues that hinder the UOCAVA program. 
Our research shows that the lack of uniformity in rules and 
regulations across the States, coupled with many practical and 
simple-to-fix issues, are the root of most UOCAVA problems. 
Most of these are not costly problems to fix, but they do 
require time and attention to harmonize.
    The second key concern is around UOCAVA ballot counting and 
the subsequent loss of voter confidence. We are very concerned 
that more qualified attention on the accuracy and validity of 
the survey and the data collection methods is needed to rectify 
the situation of uncounted UOCAVA ballots. States and local 
jurisdictions may need assistance to better monitor UOCAVA 
ballot counting, according to HAVA requirements. Not responding 
to this obvious need threatens to undermine UOCAVA voter 
participation.
    To finalize, in 2008, OVF will grow our underlying voter 
services and outreach with a focus on military and young voter 
sectors. We will continue our voter communications program and 
our support to State-level UOCAVA processes. We will team with 
industry leaders, such as Google and FedEx, to bring high-level 
services to UOCAVA voters. And we will solidify our post-
election research program. We stand ready to support Federal, 
State and local agencies in their UOCAVA program efforts.
    Thank you again for this opportunity.
    [The statement of Ms. Dzieduszycka-Suinat follows:]

    [GRAPHIC] [TIFF OMITTED] T3118A.109
    
    [GRAPHIC] [TIFF OMITTED] T3118A.110
    
    [GRAPHIC] [TIFF OMITTED] T3118A.111
    
    [GRAPHIC] [TIFF OMITTED] T3118A.112
    
    [GRAPHIC] [TIFF OMITTED] T3118A.113
    
    [GRAPHIC] [TIFF OMITTED] T3118A.114
    
    [GRAPHIC] [TIFF OMITTED] T3118A.115
    
    [GRAPHIC] [TIFF OMITTED] T3118A.116
    
    [GRAPHIC] [TIFF OMITTED] T3118A.117
    
    [GRAPHIC] [TIFF OMITTED] T3118A.118
    
    [GRAPHIC] [TIFF OMITTED] T3118A.119
    
    [GRAPHIC] [TIFF OMITTED] T3118A.120
    
    [GRAPHIC] [TIFF OMITTED] T3118A.121
    
    [GRAPHIC] [TIFF OMITTED] T3118A.122
    
    [GRAPHIC] [TIFF OMITTED] T3118A.123
    
    [GRAPHIC] [TIFF OMITTED] T3118A.124
    
    [GRAPHIC] [TIFF OMITTED] T3118A.125
    
    [GRAPHIC] [TIFF OMITTED] T3118A.126
    
    [GRAPHIC] [TIFF OMITTED] T3118A.127
    
    The Chairman. Thank you. Mr. Brace.

                   STATEMENT OF KIMBALL BRACE

    Mr. Brace. Mr. Chairman and members of the House 
Administration Committee, it is with extreme pleasure that I 
come before you today to testify about military and overseas 
voting. My name is Kimball Brace, and I am President of 
Election Data Services, a company that I started more than 31 
years ago. For the past four decades, I have been heavily 
involved in election administration issues, including working 
with Dr. Richard Smolka, whose newsletter Election 
Administration Reports is a staple in the field.
    Over the past three decades, my company has been retained 
by Federal, State and local governments around the Nation to do 
a wide variety of studies. We have, since 1980, been the only 
one, or as I say, crazy enough, to keep track of what kind of 
voting equipment is used in every single county in the Nation. 
We collect and analyze election results, and we have published 
for the past 20 years the well-recognized election result 
poster that I am sure is in a number of your offices and that 
we do with Roll Call after each election. In addition, we are 
heavily involved in redistricting all around the country, 
having worked in more than half the nation's and helping them 
in that process.
    In short, Mr. Chairman, I am a numbers guy. And it is 
because of that background that we have been the contractors 
for the U.S. Election Assistance Commission for the past 4 
years. We have been in charge of compiling, analyzing and 
helping the EAC create their reports to Congress on a wide 
variety of subjects, including the one that we did on UOCAVA 
voters that has been cited already. These reports for both 2004 
and 2006 can be found on the EAC's Web site at www.eac.gov. The 
source of these reports have been the election-based surveys 
that the EAC conducted after each election.
    Before I talk about the results of the UOCAVA study, it is 
important to lay a framework of election administration in this 
country. There are 10,071 jurisdictions in this Nation that 
conduct elections on a regular basis, using a wide variety of 
different voting equipment. Slightly more than 3,100 are 
counties that conduct elections, but there are more than twice 
that number of local towns, townships and cities in the six 
States of New England as well as Michigan, Minnesota and 
Wisconsin. As a result, half of all jurisdictions in this 
country have less than 1,400 registered voters. There are only 
15 counties in the Nation that have more than a million 
registered voters.
    In short, most of the elections in this Nation are 
conducted by small jurisdictions that have small numbers of 
staff and very small budgets. This fact has been a problem in 
terms of the EAC survey, in trying to get responses from these 
jurisdictions. The 2006 reports were better than those produced 
for 2004, especially the one dealing with UOCAVA voting. But it 
was not complete, nor was it perfect.
    While every UOCAVA voter is important, it should also be 
noted that they are but a small element in the overall election 
and voting process. The EAC survey found that more than 78 
percent of the ballots cast or counted in 2006 came from voters 
at the polls on Election Day. Overall absentee ballots make up 
another 13.8 percent of the vote. And UOCAVA voters contribute 
less than one half of 1 percent of the ballots that were cast 
or counted in 2006. While small in number, UOCAVA voters still 
constitute a significant voting block that suffers unique 
problems in grappling with the American election system. 
Overall the Nation's States and counties reported for 2006 
slightly less than 1 million UOCAVA ballots that were requested 
in that election. But that amounted to only 16.5 percent of the 
nearly six million eligible citizens cited by GAO to be covered 
by UOCAVA.
    While reaching UOCAVA voters and getting them to 
participate in the election is one problem in which my 
colleague on this panel has been instrumental in helping to 
solve, the EAC survey also unveiled a more significant problem. 
Of these, more than 1 million--or slightly less than 1 million 
UOCAVA voters who requested absentee ballots, ultimately only 
1/3 of them were cast or counted. One answer to this problem 
can be found in the reasons for the ballots to be rejected. The 
EAC survey found that over 70 percent of the ballots were 
rejected because they were undeliverable. In other words, they 
were sent out by election administrators but never reached the 
voter due to problems with the voters' addresses. This is the 
top problem for UOCAVA ballots reported in 26 States.
    In addition, Federal law requires that election 
administrators must send ballots to UOCAVA voters for at least 
two elections. Therefore, while addresses of UOCAVA voters are 
old and have not been updated to reflect the fact that the 
voter has moved or, in the case of the military, been 
relocated, it is understandable that ballots don't reach the 
voters. Domestic civilians have the advantage of U.S. Post 
Office with the mail forwarding service, but foreign voters do 
not. As a result, one of the key EAC recommendations from the 
UOCAVA study dealt with this problem of undeliverable ballots. 
``Mechanics need to be set up,'' it said, ``by the military, 
whereby a military transfer generates a moved notice to the 
local registrar. Additionally, military bases need to set up 
programs with State and local election offices, whereby an 
undeliverable registration or ballot generates a rapid 
notification, perhaps by e-mail, to the individual voter so 
that they can respond in a timely fashion. Another possibility 
would be providing forwarding exemptions for overseas military 
ballots.''
    In conclusion, Mr. Chairman, I would like to take this 
opportunity to thank this committee for conducting an 
outstanding series of hearings on elections in the last 2 
years. I am pleased to see you continue to listen to local 
election administrators from around the country.
    For the past 8 years, election administrators have been 
questioned, criticized, second-guessed and shortchanged. Having 
worked with them for more than 40 years, however, I can attest 
that they are one of the most dedicated and hard-working group 
of individuals that I have known. They continue to be asked to 
do the impossible with fewer resources, less staff and smaller 
budgets. But they are the bedrock of American democracy.
    Thank you for allowing me to testify.
    [The statement of Mr. Brace follows:]

    [GRAPHIC] [TIFF OMITTED] T3118A.128
    
    [GRAPHIC] [TIFF OMITTED] T3118A.129
    
    [GRAPHIC] [TIFF OMITTED] T3118A.130
    
    [GRAPHIC] [TIFF OMITTED] T3118A.131
    
    [GRAPHIC] [TIFF OMITTED] T3118A.132
    
    [GRAPHIC] [TIFF OMITTED] T3118A.133
    
    The Chairman. Thank you. Any questions, Mr. Ehlers?
    Mr. Ehlers. Thank you, Mr. Chairman. First of all, Mr. 
Brace, thank you for the excellent summary of the statistics. I 
always wondered where all those statistics came from.
    Mr. Brace. I am like you, Mr. Representative, a 
statistician at heart.
    Mr. Ehlers. Yes. Right. It is a terrible affliction.
    Mr. Brace. Absolutely, yes.
    Mr. Ehlers. But I really appreciate it. And thank you for 
the light you brought to bear on this.
    Also, Ms. Suinat, I just want to thank you for what you 
have done. I think it is a great step forward, having your 
organization out there. You are going in the right direction. I 
think you have been very helpful to a lot of people already, 
and I have heard a number of good comments about your work and 
the work of your foundation and that, as you know, came out in 
the testimony today too from some other people.
    So thank you to both of you for what you do. I have no 
questions, Mr. Chairman.
    The Chairman. Thank you. Any questions?
    Ms. Davis. Ladies first.
    Mrs. Davis of California. Thank you. And I am sorry I 
missed the beginning of the testimony. But I wonder if you 
could just talk a little bit about the role of the Federal 
Government, State and even the local governments. Because one 
of the discussions that we have here, of course, is what the 
proper roles are. And we know that there is not 
standardization. We have had some efforts to do that, but there 
are questions and concerns about it. How difficult do the 
individuals, foreigners, people in foreign countries, Americans 
that you work with, how great a problem is that, the fact that 
you have some States, some counties that are doing things 
differently from one another?
    Ms. Dzieduszycka-Suinat. Thank you, Representative Davis, 
for your question. One of the fundamental problems in UOCAVA in 
implementing the program is that it is a Federal program, but 
we must keep in mind that the implementation is hanging on the 
States. It is absolutely the responsibility of the States to do 
the final implementation of the program.
    In that process, they can matrix a whole new set of 
regulations over the basic Federal program. So what you end up 
with is a Federal form that when taken by any State, they can 
add questions or requirements to for which there are no fields 
on the form. Or perhaps there are fields on the form, the 
answers of which they do not want in any given State. In order 
to manage that level of complexity and the fact that the 
instructions come in a 500-page book, we put that onto the 
Internet so that the voter doesn't have that level of research 
required upon him or a voting assistance officer does not need 
to know 50 States and 5 territories worth of regulations.
    There is also the issue of those forms then going over to 
the local election office. There are 7,838 local election 
offices processing the registration forms, and you can imagine 
the variations. Some don't have electricity, I hear, let alone 
Internet access. But the variation is great. And as Kim rightly 
explained, many of them are dealing with just one or two voters 
that are far away, but they probably know them personally. So 
this level of handling and managing the workload around these 
registration forms is very particular.
    Mrs. Davis of California. Are there one or two areas that 
you would suggest are worthy of a look in terms of more 
standardization that would make the job of helping people who 
want very badly to vote, to participate much easier and 
certainly more responsive.
    Ms. Dzieduszycka-Suinat. In fact, when you matrix out all 
of the variations for all the States, you can see that there is 
a common way of filling out those forms that is required. And 
it is really all exception bases. But the exceptions are the 
landmines that catch the voters. For example, if you live in 
Ohio and you don't write on your registration form how long you 
lived in Ohio before you moved overseas--but you would never 
know that. There is no field for that on the form--your form 
can rightly be rejected by the local election official. There 
are several--that is just one example. There are many different 
ones for different States. That level of variation--granted it 
may be felt to be necessary for the State to want to know that 
particular item of information. However, it just doesn't 
translate. It doesn't translate to actually voting from 
overseas. Because you can't get that information to the voter 
in any feasible way unless it is online. So, I mean, we do work 
online quite successfully, and all those special requirements 
are integrated into our online programs. However, it is not--I 
still would say that that level of variation complicates----
    Mrs. Davis of California. Is there any way of knowing how 
many ballots are thrown out as a result of the differences in 
requirements?
    Ms. Dzieduszycka-Suinat. Only if you gave a better tracking 
system to the local level to do so. You could not roll that up. 
I would definitely recommend that some attention be given to 
the idea of giving better tracking facilities and resources all 
the way down to the local level where they don't have the 
resources to do this properly.
    Mrs. Davis of California. Thank you. Thank you, Mr. 
Chairman.
    The Chairman. Thank you. Mr. McCarthy.
    Mr. McCarthy. Thank you, Mr. Chairman. I appreciate both of 
your testimonies, everyone today. The panel before. Very 
interesting.
    Susan Suinat, is that correct? I was reading in the press 
release and I was looking forward to your testimony on the 
FedEx portion. It wasn't clear whether it carried also to the 
military voting. And you said it did. Can you explain a little 
more of that partnership on the ballots?
    Ms. Dzieduszycka-Suinat. I can explain some, yes. It hasn't 
been announced in great detail because FedEx is working quite 
actively on defining what the conditions are for each and every 
country. So we will have another specific press conference 
dealing with exactly that. They have put a tremendous amount of 
resource behind this program.
    I initiated the program by writing a proposal to them, 
asking them to step in where certain other systems have failed 
voters overseas and in the military. And they accepted that 
proposal. And so this program is--it is the child of that idea 
where they will assist overseas citizen voters and uniformed 
services voters for a given amount of time, for example, but 
not specifically defined yet, but probably the months of 
September and October and just the beginning of November.
    Mr. McCarthy. Do they have to have a--have they gone as far 
as saying we need the ballot 5 days, 4 days, 6 days before the 
election to get it back in time?
    Ms. Dzieduszycka-Suinat. No. Those specifics haven't been 
defined by country. But we have discussed different ways of 
handling the operation. When it is not just prior to the 
election, for example, ballots could be gathered for a week and 
then all go at once. One of the challenges for an organization 
like FedEx to manage the costing around a program like that is 
the 7,838 destinations.
    Mr. McCarthy. Are they donating this service?
    Ms. Dzieduszycka-Suinat. Yes, they are.
    Mr. McCarthy. So in essence, if they said they would 
already do the military, Mr. Chairman, I think we would have a 
concern here, listening to Secretary of State Chapman where she 
would not be able to accept it. Here is an individual working 
to solve this problem. And when you think about, one, just the 
concept, the idea that the bill I introduced brought forward 
would actually do what you were talking about, here is an 
individual that has gone out and I guess procured it in a way 
that we have an ability to have a solution for at least 23 
percent of those that weren't counted last time, but only 144 
days to go. I mean, I think this is something maybe this 
committee should adopt and pursue and to make sure it is able 
to happen. I would hate to see all this work not to come to 
fruition as well.
    Ms. Dzieduszycka-Suinat. Can I add----
    The Chairman. Do you know how many States that don't accept 
FedEx? We know that Alabama is one.
    Mr. McCarthy. I think that is up to the committee to find 
out, get together, do a little more analysis. You collect a lot 
of data. We have the expert right here.
    Mr. Brace. I don't know, Mr. Chairman, how many States do. 
But I do know that there are a number of States where the 
deadline for receipts of the ballots vary. After all, we have 
50 different State laws. For some of them it has to be in by 
Election Day or that morning. Others simply have to be 
postmarked by that date and can come in over the next, you 
know--you have a couple days afterwards.
    Mr. McCarthy. But one thing you have found in some of your 
research, 23 percent not, and going to electronics, a lot of 
these count real fast and then give you a shorter time period. 
But I am not sure, Mr. Chairman, maybe some task force work 
because it seems as though we have a solution out there with 
all of these individuals working that I think we could act 
quickly to at least solve a small portion before this election 
comes forward. 
    The Chairman. I entertain your request to be on that task 
force.
    Mr. McCarthy. Well, I just appreciate you doing this 
hearing and all. 
    The Chairman. Thank you for volunteering.
    Mr. McCarthy. I will gladly. I am glad to help in any way 
possible and I just want to thank both of you for your service. 
And yield back.
    The Chairman. Thank you, Mr. McCarthy.
    Mr. Gonzalez.
    Mr. Gonzalez. Thank you, Mr. Chairman. My question is to 
Mr. Brace. In your testimony you cite there were 10,071 
jurisdictions in this Nation that conduct elections on a 
regular basis. And then a total of 7,654 jurisdictions have 
less than 10,000 registered voters. And I am just thinking when 
you have information gathering, when you strive for uniformity, 
you are going to run into problems just because of resources 
that may be available to those jurisdictions that truly just 
don't have that kind of--so I am going to be asking about the 
Internet. It seems to me that we put so much stock on the 
traditional way of doing things, the absentee ballot, being 
mailed in, it's being delivered by the United States Postal 
Service. But we do acknowledge, maybe it could be a fax, maybe 
it could even be a fax that is first transmitted by e-mail and 
then reduced to fax and then sent by fax. I keep saying, well, 
how is that any--still using the Internet and such. I just 
think that we have so many fears of gaming and hacking and such 
that frustrate our efforts to probably do it the most effective 
way that is out there, that is available to us. And to deny 
that technology and still have the safeguards--and I know there 
is certain safeguards. But if we were to move into the Internet 
age when it comes to voting, what problems do you think are 
posed by your very observation that we have these small 
jurisdictions out there? Let's say, you know, Atascosa County 
outside of San Antonio. My brother is the deputy sheriff. He'd 
like to run for sheriff. How does he game the system if it was 
Internet versus the way it is today with an overseas ballot?
    Mr. Brace. Well, Mr. Gonzalez, I think one of the things 
that you do have to recognize, as you have noted, the smallness 
of the jurisdictions. And you need to keep in mind that not all 
of them have the Internet, not all of them in fact have a 
computer in their office. There are still a number of 
jurisdictions that just don't have that technology as much as 
we have had it, for you and I, for who knows how long. But it 
is not all there.
    Now things have gotten better. HAVA, with the 
implementation of the statewide voter registration system, have 
begun to get computers into these offices where they didn't 
have it before. But certainly getting that coupled together 
with the possibility of ballots coming back to them, that is a 
foreign entity, truly and figuratively. But it is something 
that certainly States should be looking at as a possibility.
    Mr. Gonzalez. Do we have any numbers just for these 
jurisdictions, the 10,071, that lack Internet access, 
computers?
    Mr. Brace. We don't. The EAC is undertaking its next round 
of data collection for the 2008. That particular question is 
not on the survey, but it is certainly something that maybe the 
EAC could be taking a look at.
    Mr. Gonzalez. I would think we would lead off with that, as 
we are looking at ways of improving the system, that which is 
probably being utilized in every other aspect of American life 
and underutilized, especially in circumstances of overseas 
voting. I understand what people are thinking in terms of the 
domestic use and such, and may be a different situation.
    Ms. Suinat, just so I get that part right, what are your 
thoughts on the use of the Internet when it comes to overseas 
ballots?
    Ms. Dzieduszycka-Suinat. I think that the response that Mr. 
Brace gave about computers not being in these offices, that is 
a problem that is going away. So I would like to not--I would 
like to suggest we don't take that as a stopping point. 
Technology continues to grow.
    Using the Internet is--it is an obvious solution. How we 
use it and how we tackle the security problems, those are 
questions that have not been resolved. Internet voting 
proposals, to date, are usually stopped because of security 
problems, that the answers to those have not been sufficient 
enough to convince the powers that be that there should be a 
solution as proposed.
    Now when you look at UOCAVA, you have a very, very complex 
situation in our country where the jurisdiction level 
administration of the elections adds an incredible layer of 
complexity of getting the ballots back to these many locations 
versus a centralized system. The other thing that we have with 
UOCAVA is we are not just talking about the Federal balloting. 
But in some counties they have 300 potential ballot styles 
because they are also dealing with the very local level of 
balloting going out. So no one has yet really developed a 
solution that has been able to manage those complex issues and 
bring them together into a solution that is secure enough to 
pass the test. It is a Holy Grail. I hope we find it. I would 
love to be the one. I definitely would suggest we pursue it. It 
is an obvious avenue of fixing these problems.
    Mr. Gonzalez. Thank you very much for your testimony. I 
yield back, Mr. Chairman.
    The Chairman. Thank you. And again, thank you for your 
testimony and your participation. Thank you.
    I would like to ask unanimous consent to include the 
testimony from Publius into the record. Without objection, so 
ordered.
    [The statement of Mr. Keenan follows:]

    [GRAPHIC] [TIFF OMITTED] T3118A.140
    
    [GRAPHIC] [TIFF OMITTED] T3118A.141
    
    The Chairman. And the record will remain open for 5 days so 
that witnesses can submit additional material and respond to 
written questions. Thank you all, and this hearing is now 
adjourned.
    [Whereupon, at 12:45 p.m., the committee was adjourned.]
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T3118A.142
    
    [GRAPHIC] [TIFF OMITTED] T3118A.143
    
    [GRAPHIC] [TIFF OMITTED] T3118A.144
    
    [GRAPHIC] [TIFF OMITTED] T3118A.145
    
    [GRAPHIC] [TIFF OMITTED] T3118A.146
    
    [GRAPHIC] [TIFF OMITTED] T3118A.147
    
    [GRAPHIC] [TIFF OMITTED] T3118A.148
    
    [GRAPHIC] [TIFF OMITTED] T3118A.149
    
    [GRAPHIC] [TIFF OMITTED] T3118A.150
    
    [GRAPHIC] [TIFF OMITTED] T3118A.151
    
    [GRAPHIC] [TIFF OMITTED] T3118A.152
    
    [GRAPHIC] [TIFF OMITTED] T3118A.153
    
    [GRAPHIC] [TIFF OMITTED] T3118A.154
    
    [GRAPHIC] [TIFF OMITTED] T3118A.155
    
    [GRAPHIC] [TIFF OMITTED] T3118A.156
    
    [GRAPHIC] [TIFF OMITTED] T3118A.157
    
    [GRAPHIC] [TIFF OMITTED] T3118A.158
    
    [GRAPHIC] [TIFF OMITTED] T3118A.159
    
    [GRAPHIC] [TIFF OMITTED] T3118A.160
    
    [GRAPHIC] [TIFF OMITTED] T3118A.161
    
    [GRAPHIC] [TIFF OMITTED] T3118A.162
    
    [GRAPHIC] [TIFF OMITTED] T3118A.163
    
    [GRAPHIC] [TIFF OMITTED] T3118A.164
    
    [GRAPHIC] [TIFF OMITTED] T3118A.165
    
    [GRAPHIC] [TIFF OMITTED] T3118A.166
    
    [GRAPHIC] [TIFF OMITTED] T3118A.167
    
    [GRAPHIC] [TIFF OMITTED] T3118A.168
    
    [GRAPHIC] [TIFF OMITTED] T3118A.169
    
    [GRAPHIC] [TIFF OMITTED] T3118A.170
    
    [GRAPHIC] [TIFF OMITTED] T3118A.171
    
    [GRAPHIC] [TIFF OMITTED] T3118A.172
    
    [GRAPHIC] [TIFF OMITTED] T3118A.173
    
    [GRAPHIC] [TIFF OMITTED] T3118A.174
    
    [GRAPHIC] [TIFF OMITTED] T3118A.175
    
    [GRAPHIC] [TIFF OMITTED] T3118A.176
    
    [GRAPHIC] [TIFF OMITTED] T3118A.177
    
    [GRAPHIC] [TIFF OMITTED] T3118A.178
    

</pre></body></html>
